RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 20-639
CALVARY CHAPEL DAYTON VALLEY,
Petitioner,
v.
STEVE SISOLAK, in his official capacity as
Governor of Nevada, et al.,
Respondents.
As required by Supreme Court Rule 33.1(h), I,
Katy Boatman, certify that the Brief of Islam And
Religious Freedom Action Team and Jewish Coalition
For Religious Liberty as Amici Curiae in Support of
Petitioner in the foregoing case contains 4,608 words,
excluding the parts that are exempted by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on December 10, 2020.
/s/ Katy Boatman
KATY BOATMAN
HUNTON ANDREWS KURTH
600 Travis, Suite 4200
Houston, Texas 77002
KBoatman@HuntonAK.com
Phone: (713) 220-4200

